             Office of Inspector General
       U.S. Government Accountability Office
                  Report Highlights

March 2012


INFORMATION SECURITY
Evaluation for GAO’s Program and Practices for
Fiscal Year 2011
What We Found
The Federal Information Security Management Act of 2002 (FISMA)
requires that each federal agency establish an agencywide information
security management program for the information and information
systems that support the agency’s operations and assets. GAO is not
obligated by law to comply with FISMA or Executive Branch information
policies, but has adopted them to help ensure physical and information
system security. Our evaluation showed that GAO has established an
overall information security program that is generally consistent with the
requirements of FISMA, Office of Management and Budget implementing
guidance, and standards and guidance issued by the National Institute of
Standards and Technology. However, using FISMA reporting metrics for
federal inspectors general, we identified opportunities to improve specific
elements of this program that concern
 addressing information security risk from an overall agency
    perspective through a comprehensive governance structure and
    organization-wide risk management strategy,
 remediating security weaknesses identified for agency information
    systems in a timely manner,
 building out GAO’s Alternative Computing Facility to fully support the
    agency’s mission-essential functions in the event of an emergency or
    disaster, and
 developing accurate statistics for employees and contractors
    completing annual security awareness and role-based training.

A full report on this evaluation was prepared for internal GAO use only.

What We Recommend
This report recommends that GAO (1) establish a comprehensive
governance structure and organization-wide risk management strategy for
the security of its information systems; (2) enhance accountability for, and
management of, the agency’s information security weakness remediation
process; (3) provide senior management with adequate information to
consider and prioritize building out the capabilities of the agency’s
Alternative Computing Facility; and (4) develop and implement procedures
for capturing data that accurately reflect agency compliance with security
training requirements as of the end of each fiscal year. GAO concurred
with these recommendations.




                                                  OIG-12-2 Information Security
                      To report fraud, waste, and abuse in GAO’s internal operations, do one of
Reporting Fraud,      the following. (You may do so anonymously.)
Waste, and Abuse in
                         Call toll-free (866) 680-7963 to speak with a hotline specialist,
GAO’s Internal            available 24 hours a day, 7 days a week.
Operations
                         Online at: https://OIG.alertline.com.


                      To obtain copies of OIG reports and testimony, go to GAO’s Web site:
Obtaining Copies of   www.gao.gov/about/workforce/ig.html.
OIG Reports and
Testimony

                      Katherine Siggerud, Managing Director, siggerudk@gao.gov,
Congressional         (202) 512-4400, U.S. Government Accountability Office, 441 G Street
Relations             NW, Room 7125, Washington, DC 20548


                      Chuck Young, Managing Director, youngc1@gao.gov, (202) 512-4800
Public Affairs        U.S. Government Accountability Office, 441 G Street NW, Room 7149,
                      Washington, DC 20548




                      This is a work of the U.S. government and is not subject to copyright protection in the
                      United States. The published product may be reproduced and distributed in its entirety
                      without further permission from GAO. However, because this work may contain
                      copyrighted images or other material, permission from the copyright holder may be
                      necessary if you wish to reproduce this material separately.




                             Please Print on Recycled Paper
